<html>
<title> - EDUCATIONAL MILESTONES OF DYSLEXIA</title>
<body><pre>[Senate Hearing 114-710]
[From the U.S. Government Publishing Office]











                                                        S. Hrg. 114-710

                   EDUCATIONAL MILESTONES OF DYSLEXIA

=======================================================================

                             FIELD HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                                   ON

         EXAMINING EDUCATIONAL MILESTONES, FOCUSING ON DYSLEXIA

                               __________

                   OCTOBER 13, 2015 (Baton Rouge, LA)

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







      Available via the World Wide Web: http://www.gpo.gov/fdsys/




                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-274 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001




























          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                  LAMAR ALEXANDER, Tennessee, Chairman

MICHAEL B. ENZI, Wyoming            PATTY MURRAY, Washington
RICHARD BURR, North Carolina        BARBARA A. MIKULSKI, Maryland
JOHNNY ISAKSON, Georgia             BERNARD SANDERS (I), Vermon t   
RAND PAUL, Kentucky                 ROBERT P. CASEY, JR., Pennsylvania
SUSAN COLLINS, Maine                AL FRANKEN, Minnesota
LISA MURKOWSKI, Alaska              MICHAEL F. BENNET, Colorado
MARK KIRK, Illinois                 SHELDON WHITEHOUSE, Rhode Island 
TIM SCOTT, South Carolina           TAMMY BALDWIN, Wisconsin 
ORRIN G. HATCH, Utah                CHRISTOPHER S. MURPHY, Connecticut
PAT ROBERTS, Kansas
BILL CASSIDY, M.D., Louisiana     
                                
                                     ELIZABETH WARREN, Massachusetts
                                       

               David P. Cleary, Republican Staff Director
                  Evan Schatz, Minority Staff Director
              John Righter, Minority Deputy Staff Director

                                  (ii)

  






















                            C O N T E N T S

                               __________

                               STATEMENTS

                       TUESDAY, OCTOBER 13, 2015

                                                                   Page

                           Committee Members

Cassidy, Hon. Bill, M.D., a U.S. Senator from the State of 
  Louisiana......................................................     1

                               Witnesses

Shaywitz, Bennett A., M.D., Chief of Pediatric Neurology and Co-
  Director of the Yale Center for Dyslexia and Creativity, Yale 
  University School of Medicine, New Haven, CT...................     4
    Prepared statement...........................................     5
Shaywitz, Sally E., M.D., Audrey G. Ratner Professor in Learning 
  Development and Co-Director of the Yale Center for Dyslexia and 
  Creativity, Yale University School of Medicine, New Haven, CT..     8
    Prepared statement...........................................    11
Montgomery, Rev. Derrius M., Associate Minister, Greater King 
  David Baptist Church, Baton Rouge, LA..........................    18
    Prepared statement...........................................    19
Trapp, Allyce, Student, Louisiana State University, Baton Rouge, 
  LA.............................................................    19
    Prepared statement...........................................    21
Law, Margaret, CALT, Dyslexia & 504 Coordinator, Central 
  Community Schools, Central, LA.................................    22
    Prepared statement...........................................    23

                                 (iii)

  

 
                   EDUCATIONAL MILESTONES OF DYSLEXIA

                              ----------                              


                       TUESDAY, OCTOBER 13, 2015

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Baton Rouge, LA
    The committee met, pursuant to notice, at 3:12 p.m., in 
Dalton Woods Auditorium, Energy Coast and Environment Building 
at Louisiana State University, Nicholson Drive Extension, Hon. 
Bill Cassidy, M.D., presiding.
    Present: Senator Cassidy.

                  Opening Statement of Senator Cassidy

    Senator Cassidy. This is actually a Senate committee 
hearing, and this is the protocol and format by which we will 
abide.
    We have a third panelist. I apologize for beginning late, 
but our third panelist is running late. We now know he's 
nearby, so we'll go ahead and start, and when he arrives, he 
will be able to join.
    This morning we are having a hearing titled ``Educational 
Milestones of Dyslexia'' that will highlight the importance of 
early identification of students with dyslexia, how high-stakes 
testing affects such students, and the need for appropriate 
accommodations.
    I will make an opening statement, then introduce our panel. 
Each panelist will have 5 minutes. That light right there which 
you cannot see but hopefully they can, the green light is go, 
the yellow means you have 1 minute left, and the red light 
means wrap it up or else I'm going to wrap you.
    [Laughter.]
    After our witness testimony, we will begin with a round of 
questioning.
    First, thank you all for being here. I see Joe from the 
school board. Thank you for being here. There are other 
educators here. My cousin is in the audience, Sophie. Again, I 
thank you all for being here.
    I'm pleased to host this hearing to discuss the issue of 
dyslexia--an issue important to me as a parent and as a 
Senator.
    Hi, Derrius. Welcome.
    My hope is to bring greater awareness and understanding to 
dyslexia to help drive new Federal policies and to create 
resources to help students identified as dyslexic. The goal of 
the hearing is to show the importance of the identification, 
how high-stakes testing affects such dyslexic students, and the 
need for providing appropriate accommodations for dyslexics.
    First the definition. Dyslexia is an unexpected difficulty 
in reading highlighted by a gap between an individual's 
intelligence and their reading level, the bright child that 
cannot read. Or, as I was speaking to someone in the audience, 
the bright adult who cannot read.
    An NIH study recently found that the prevalence rate of 
dyslexia is nearly 20 percent affecting Americans, but it's 
international, from all walks of life, Members of Congress, our 
staff, our members, thousands of constituents, 20 percent of 
us, and in this room probably more than 20 percent.
    A couple of years ago my youngest daughter was diagnosed 
with dyslexia, so my wife and I set out to find out as much as 
we could and were amazed at how much is known and yet not 
incorporated into public policy. It is maddening. A recent GAO 
report found that many students with learning and other 
disabilities, including dyslexia, are not receiving 
accommodations such as extended testing time, which is required 
by the Americans with Disabilities Act when they take high-
stakes testing such as the SAT, GRE, LSAT, or U.S. medical 
licensing exams and others. This is unacceptable, and by 
working together we can make sure that those with learning 
disabilities receive their proper and legally required 
accommodations.
    For those with money, you can get that accommodation. If 
your child has dyslexia and you can afford $10,000 to $50,000 
in tuition, your child can have that accommodation. For most 
families, that is not an option, and the question is whether in 
a typical public school dyslexics are mainstreamed. 
Mainstreaming, since there is a scientific base curriculum 
which is just for dyslexics, mainstreaming quite likely means 
they will not receive the remediation they need.
    I applaud the schools and educators who have embraced 
science by providing students with the proper educational 
environment and curriculum that enables them to thrive 
personally and academically. Proper support at every level can 
make all the difference for a student struggling with a 
learning disability.
    Let me brag a little bit on Louisiana. I think there are 
maybe three charter schools in the Nation--I only know for sure 
two--that specialize for children with dyslexia, and those two 
are in Louisiana. The first is the Max Charter School in 
Thibodaux, and then the other is the Louisiana Key Academy here 
in Baton Rouge. Full disclosure, my wife helped start that 
charter school, and there are some LA Key Academy board members 
here. Aside from being proud of my wife, I more importantly 
think that it's a good thing which extends access to that 
scientific curriculum to those who ordinarily would never be 
able to afford it. We need more of this.
    There is much work to be done in raising the awareness 
about dyslexia and making important policy changes that create 
opportunities for all dyslexics, but we cannot afford to ignore 
those who are challenged. In the House of Representatives, I 
started the congressional Dyslexia Caucus to raise awareness. 
Since moving to the Senate last week, joining with Senator 
Barbara Mikulski of Maryland, we passed a bipartisan resolution 
which calls upon ``Congress, schools, and State and local 
educational agencies to recognize the significant educational 
implications of dyslexia that must be addressed'' and which 
designated October 2015 as National Dyslexia Awareness Month. I 
hope this resolution is the first of many steps in the right 
direction.
    Despite great strides, we still have much to learn about 
dyslexia, and we have a great panel today to speak to us on 
that subject. Let me now introduce the witnesses. I will start 
with the two right there.
    Drs. Sally and Bennett Shaywitz were to join us, but 
circumstances worked out that they could not. They are 
currently at Yale in Connecticut. I think you see that banner 
above Bennett's head. They will be joining us via video, 
obviously.
    Sally, I will first speak to her, is the Audrey G. Ratner 
Professor in Learning Development at Yale University School of 
Medicine and co-director of the Yale Center for Dyslexia and 
Creativity. Dr. Shaywitz has authored more than 200 scientific 
articles and books, and together with her husband, Dr. Bennett 
Shaywitz, is the originator of the Sea of Strengths model of 
dyslexia. Dr. Shaywitz is also an elected member of the 
Institute of Medicine of the National Academy of Sciences. She 
received her Bachelor's degree from the City University and her 
medical degree from the Albert Einstein College of Medicine.
    Dr. Bennett Shaywitz is the Charles and Henry Schwab 
Professor in Dyslexia and Learning Development and co-director 
of the Yale Center for Dyslexia and Creativity. He has devoted 
his career to better understanding and elucidating the 
neurobiological basis of reading and dyslexia to ensure that 
this new knowledge is translated into better care and treatment 
of children and adults who are dyslexic. Dr. Shaywitz has 
authored more than 300 scientific papers and has received many 
honors for his contributions. He currently serves on the 
Scientific Advisory Board of the March of Dimes and the 
National Vaccine Program Office of Safety Subcommittee. He 
received his Bachelor's degree from Washington University and 
his medical degree from Washington University School of 
Medicine.
    Next is Reverend Montgomery. He is a nationally recognized 
educational advocate, entrepreneur, and social change 
influencer. Reverend Montgomery was born and raised in 
Louisiana, where he attended both Baton Rouge Community College 
and LSU, majored in marketing and a minor in business 
administration. He is currently enrolled in the New Orleans 
Theological Seminary. An ordained minister, Reverend Montgomery 
attends the Greater King David Church in Baton Rouge, serving 
as an associate minister.
    Allyce Trapp, Ms. Trapp is a senior at LSU from Houma. She 
is majoring in mass communications and minoring in history and 
business administration. She is involved in several extra-
curricular activities, including student government.
    We're interested in hearing your perspective as someone 
with dyslexia who has been able to do so well in a university 
setting.
    And last, Ms. Margaret Law. Margaret is currently the 
district dyslexia and 504 coordinator at Central Community 
Schools. She earned her Bachelor's degree from LSU and is a 
certified academic language therapist. Her teaching expertise 
spans from 1st through 12th grades in both self-contained 
classes and as an academic language therapist. She also 
provides multisensory-structured language services and has 
presented at conferences and workshops. We are glad to have 
Margaret here to brief us on the needs of teachers who are 
vital to the success of students with dyslexia.
    If I may suggest to you three, as I mentioned to you two 
earlier, you all may want to sit there as the Shaywitzes speak, 
because they will have slides, and I am actually going to 
reference those as I then ask you questions.
    I think, Bennett, you went first earlier, so I will turn to 
you two to decide what to do next.

  STATEMENT OF BENNETT A. SHAYWITZ, M.D., CHIEF OF PEDIATRIC 
 NEUROLOGY AND CO-DIRECTOR OF THE YALE CENTER FOR DYSLEXIA AND 
 CREATIVITY, YALE UNIVERSITY SCHOOL OF MEDICINE, NEW HAVEN, CT

    Dr. Bennett Shaywitz. Thank you so much, Senator Cassidy. 
Welcome to all our other panel members.
    What we'd like to do in the next few minutes is give you a 
sense of how dyslexia serves as an explanation and potential 
solution to our national epidemic of reading and school 
failure.
    The problem, as Senator Cassidy outlined, is that there is 
really a national epidemic of reading and academic failure. 
Science has shown that dyslexia may be at the root of these 
reading difficulties, but yet schools are not using the 
scientific knowledge to address and remediate these problems. 
We think, and I think you would all agree, that schools really 
need to increase their awareness of dyslexia.
    Here is data from the National Assessment of Educational 
Progress, the so-called Nation's report card, of Grade 4 
reading, the most recent iteration, and you can see that about 
half of African American children, African American 4th 
graders, are not reading--are reading below what is considered 
basic reading levels compared to still a significant 
percentage, 21 percent, of white students.
    I think this emphasizes that dyslexia is especially 
prevalent and unrecognized in children of color and children 
who are disadvantaged. In these children, reading difficulties 
are often written off to environmental issues or lack of 
ability. We believe that these can be addressed and remediated, 
but only if the child is identified as dyslexic.
    Senator Cassidy mentioned the definition of dyslexia, and 
this is really the 21st century definition of dyslexia which 
has now been codified by Senator Cassidy and Senator Mikulski 
in the Cassidy-Mikulski Resolution in the Senate, and here 
dyslexia is defined as an unexpected difficulty in reading for 
an individual who has the intelligence to be a much better 
reader. We now know that this is due to a difficulty in getting 
to the individual sounds of spoken language which affects the 
ability of an individual to speak, to read, spell, and often 
learn a second language.
    Here is data that supports the unexpected nature of 
dyslexia. We have IQ along this line and reading along this 
line, and reading and IQ are dynamically linked. Sally calls 
them kissing cousins. IQ affects reading, reading affects IQ, 
and so on.
    In dyslexic readers, in contrast, IQ and reading are very 
much separated. They don't seem to be talking to one another, 
and what it means is that in dyslexic readers you can be very 
smart and still not read very well. This supports the 
unexpected nature of dyslexia.
    Senator Cassidy mentioned that dyslexia is the most common 
of learning disabilities. In fact, it represents 80 to 90 
percent of all children diagnosed as having a learning 
disability.
    We know that dyslexia is universal. It affects all racial, 
ethnic, and social groups, and we know that it affects one in 
five children. That is 10 million children in our country. 
Every classroom has children who are struggling readers.
    And we know the neural basis of dyslexia. Study after 
study--this is an illustration from one of our own studies 
showing the left side of the brain in typical readers and the 
left side of the brain in dyslexic readers. What we see is what 
we call the neural signature for dyslexia. That is, in typical 
readers, we see these three systems for reading, one in the 
front of the brain and two in the back of the brain. In 
dyslexic readers, we have the neural signature, and that is an 
inefficient functioning of those systems on the left side of 
the back of the brain.
    So what we now know in dyslexia is there's not a knowledge 
gap. We have plenty of knowledge, but what we have is an action 
gap. Our goal, and I'm sure it is yours, is to align education 
with 21st century science.
    [The prepared statement of Dr. Bennett Shaywitz follows:]
            Prepared Statement of Bennett A. Shaywitz, M.D.
    Good morning Senator Cassidy, fellow members of the panel and 
attendees. Thank you for the opportunity to speak with you about the 
science of dyslexia and share with you the tremendous scientific 
progress that has been made in dyslexia. In particular, we want to 
focus on dyslexia as an explanation and potential solution to the 
national epidemic of reading/school failure.
    My name is Bennett Shaywitz, M.D., I am a physician-scientist and 
the Charles and Helen Schwab Professor in Dyslexia and Learning 
Development and co-director of the Yale Center for Dyslexia & 
Creativity at the Yale University School of Medicine. Both a child 
neurologist and neuroscientist I have been a leader in applying 
functional magnetic resonance imaging (fMRI) to understand the 
neurobiology of reading and dyslexia in children and adults. These 
studies identify a neural signature for dyslexia, making a previously 
hidden disability visible, and for the first time demonstrate the brain 
basis for the lack of fluency in dyslexia. Our most recent studies 
focus on differences in brain connectivity between dyslexic and typical 
reading children and adults and studies in progress use fMRI to 
investigate attentional mechanisms in reading and dyslexia.
    The author of over 300 scientific papers, my honors include 
election to membership in the National Academy of Medicine of the 
National Academy of Sciences and recipient of the Distinguished Alumnus 
Award from Washington University. I currently serve on the boards of 
the Park Century School and the Westmark School. I previously served on 
the Institute of Medicine Immunization Safety Review Committee, on the 
National Vaccine Program Safety Subcommittee and on the Scientific 
Advisory Board of the March of Dimes. I have been selected annually for 
Best Doctors in America and America's Top Doctors.
    As you will hear, in dyslexia, science has moved forward at a rapid 
pace so that we now possess the data to reliably define dyslexia, to 
know it's prevalence, it's cognitive basis, it's symptoms and 
remarkably, where it lives in the brain and evidence-based 
interventions which can turn a sad, struggling child into not only a 
good reader, but one who sees herself as a student with self esteem and 
a fulfilling future.
                              the problem
    Overwhelming evidence indicates that we are in the midst of a 
national epidemic of reading/academic failure. Accumulating scientific 
evidence demonstrates that dyslexia both may be at the root of the 
reading difficulties noted and provide a potential solution to this 
unfortunate epidemic. The difficulty is that although the evidence is 
there, schools do not appear to be aware of and/or using this 
scientific knowledge to remediate the highly prevalent epidemic of 
reading failure. It is imperative that schools must increase their 
awareness of dyslexia.
    The most recent data from the National Assessment of Educational 
Progress (NAEP, 2013) demonstrate that African American students are 
especially impacted by this epidemic of reading failure. For example, 
fully half (50 percent) of African American boys and girls are reading 
below basic levels compared to 21 percent of white students. Sadly, 
these reading difficulties are not only highly prevalent in children of 
color and those who are disadvantaged, but they far too often go 
unrecognized and unaddressed. In these children their significant 
reading difficulties tend to be written off to environmental issues or 
lack of ability. What science has taught us is that these reading 
difficulties can be addressed and remediated, but only if the child is 
identified as dyslexic.
                     unexpected nature of dyslexia
    Dr. Morgan's initial description of dyslexia over 100 years ago as 
an unexpected difficulty in reading has now been validated by empiric 
evidence. Our research group found that in typical readers, IQ and 
reading are dynamically linked, they track together over time and 
influence each other. In contrast, in dyslexic readers. reading and 
intelligence are not linked and develop more independently so that a 
child who is dyslexic can have a very high IQ and, unexpectedly, read 
at a much lower level.
    This unexpected nature of dyslexia is now recognized in the 21st 
century definition of dyslexia found in Cassidy-Mikulski Senate 
resolution 275. Here dyslexia is:

    (1) ``Defined as an unexpected difficulty in reading for an 
individual who has the intelligence to be a much better reader''; and


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    (2) Due to a difficulty in getting to the individual sounds of 
spoken language which affects the ability of an individual to speak, 
read, spell and often, learn a second language.

    The Cassidy-Mikulski resolution not only recognizes the unexpected 
nature of dyslexia but also incorporates what 21st century science 
knows about the cognitive basis of dyslexia. Dyslexia is a difficulty 
within the language system, more specifically, the phonological 
component of language--it is not seeing words backward.
    Data from laboratories around the world now answer the question--
why do otherwise bright and motivated children struggle or even fail to 
learn to read? Almost invariably, they have a phonologic deficit. To 
explain, converging evidence over the past several decades supports the 
phonological basis of dyslexia. Phonological refers to the smaller 
pieces of language that make up a spoken word. To understand the 
implications of this theory, we compare what we know about spoken 
compared to written language. Spoken language is natural and does not 
have to be taught--everyone speaks. Reading is artificial and must be 
taught. The key in learning to read is that the letters have to be 
linked to something that has inherent meaning--the sounds of spoken 
language. To read, the beginning reader must come to recognize that the 
letters and letter strings represent the sounds of spoken language. She 
has to develop the awareness that spoken words can be pulled apart into 
their basic elements, phonemes, and that the letters in a written word 
represent these sounds. Children and adults who are dyslexic struggle 
to pull apart the spoken word and, as a result, cannot isolate each 
sound and attach it to its letter. Results from large and well-studied 
populations of dyslexic children confirm that in young children as well 
as adolescents a deficit in phonology represents the most specific and 
robust correlate of dyslexia.
        dyslexia is specific; learning disabilities are general
    Dyslexia is the most common and most carefully studied of the 
learning disabilities, affecting 80 percent to 90 percent of all 
individuals identified as learning disabled. Of the learning 
disabilities, dyslexia is also the best characterized and the oldest. 
In fact, the first description of dyslexia preceded the first mention 
of learning disability by over 60 years--dyslexia was first reported by 
British physician, Dr. Pringle Morgan, in 1896, describing Percy F.,

          ``He has always been a bright and intelligent boy, quick at 
        games, and in no way inferior to others of his age. His great 
        difficulty has been, and is now, his inability to learn to 
        read.''

    A description that characterizes the boys and girls, men and women, 
I continue to see to this day. In contrast, the term learning 
disabilities was first used only in 1962.




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Dyslexia differs markedly from all other learning disabilities. 
Dyslexia is very specific and scientifically validated: we know its 
prevalence, cognitive and neurobiological origins, symptoms, and 
effective, evidence-based interventions. Learning disabilities is a 
general term referring to a range of difficulties which have not yet 
been delineated or scientifically validated. Learning disabilities are 
comparable to what in medicine are referred to as ``infectious'' 
diseases, while dyslexia is akin to being diagnosed with a strep 
throat--a highly specific disorder in which the causative agent and 
evidence-based treatment are both known and validated.
                        epidemiology of dyslexia
    Scientific studies in a range of disciplines provide epidemiologic, 
cognitive and neurobiological data to characterize dyslexia. 
Epidemiologic data from sample surveys, in which each individual is 
assessed, indicate that dyslexia is highly prevalent, affecting one in 
five--yes you read this correctly. It is not the stated prevalence 
often quoted. Why? The why is the reason we are here today--schools far 
too often fail to acknowledge, much less identify, students who are 
dyslexic. Consequently, schools will report low, but incorrect numbers 
of students affected. If dyslexic children are not identified, they 
cannot be counted.
    Many believe that even this one in five estimate may be too low. 
For example, data from the 2013 National Assessment of Educational 
Progress (NAEP, the Nation 's Report Card) indicate that two in three 
students in 4th or 8th grade are not proficient readers. Among some 
groups of students the numbers are far worse. The NAEP data show that 
four in five African American, Latino and Native American students are 
not proficient readers. Many would consider this to be an out-of-
control epidemic of reading failure, and considering its negative 
consequences, a national crisis demanding action. Longitudinal studies, 
prospective and retrospective, indicate dyslexia is a persistent, 
chronic condition; it does not represent a ``developmental lag.''
    Sample surveys in which every subject has been individually 
assessed show relatively equal numbers of males and females affected. 
Studies based on school-based identification show a high male 
prevalence with accompanying data indicating that the often disruptive 
behaviors of the boys in the classroom play a strong role in bringing 
them to the attention of their teacher with subsequent referral. Girls 
who may be struggling readers, but who are sitting quietly in their 
seats, far too often fail to be identified.
    Dyslexia has no known boundaries, it is universal, affecting 
virtually all geographic areas, and both alphabetic and logographic 
languages. For example, my book. Overcoming Dyslexia. (Knopf) has been 
translated, as expected, into alphabetic languages (Portuguese, Dutch, 
Croatian, etc.) but also, a surprise to me, logographic scripts 
including Japanese and Korean and most recently, Chinese. In addition, 
dyslexia occurs in every ethnic, race and socio-economic class.
                      neural signature of dyslexia
    Converging evidence using functional magnetic resonance imaging 
(fMRI) from our own and laboratories around the world has identified 
three major neural systems for reading in the left hemisphere, one 
region, anterior, in Broca's area and two regions posterior, one in the 
parieto-temporal (or Wernicke's area), and another, in the occipito-
temporal region, often referred to as the word form area. Furthermore, 
such fMRl studies indicate that in dyslexic readers, the posterior 
neural systems are functioning inefficiently, providing a neural 
signature for dyslexia. Critically, these posterior neural systems 
appear to be important in skilled, automatic reading and inefficient 
functioning in these neural systems suggest an explanation for the 
slow, effortful reading characterizing dyslexic readers. Recent studies 
of brain connectivity by us and others demonstrate that in dyslexic 
readers there is reduced connectivity to the posterior neural systems 
responsible for skilled. automatic reading.
                       in dyslexia: an action gap
    So what's the problem? The good news is that our problem is a 
solvable one. Of course, we are always seeking new knowledge. In 
dyslexia there is sufficient high quality scientific knowledge to help 
and to turn around the lives of so many struggling children. In 
dyslexia, remarkably in America, in the year 2015, we have not a 
knowledge gap but an action gap. We have the knowledge but it is not 
being put into policy and practice and far too many children and 
adults, too, are suffering needlessly. There is an epidemic of reading 
failure that we have the scientific evidence to treat effectively and 
we are not acknowledging or implementing it. It is our hope that 
hearing the depth and extent of the scientific knowledge of dyslexia 
will alert policymakers to act and to act with a sense of urgency.
    The really good news: Science is there for those who are dyslexic. 
We must align education with 21st century science. A major step in 
bringing science and education together is the Cassidy-Mikulski Senate 
Resolution 275 which provides the most up-to-date. universal, 
scientifically valid definition of dyslexia incorporating scientific 
advances in understanding dyslexia, especially, its unexpected nature, 
and represents a landmark in aligning science and education.

    STATEMENT OF SALLY E. SHAYWITZ, M.D., AUDREY G. RATNER 
 PROFESSOR IN LEARNING DEVELOPMENT AND CO-DIRECTOR OF THE YALE 
 CENTER FOR DYSLEXIA AND CREATIVITY, YALE UNIVERSITY SCHOOL OF 
                    MEDICINE, NEW HAVEN, CT

    Dr. Sally Shaywitz. I will continue to give you a little 
bit of the background, the scientific background to dyslexia. 
Now that we have that, we have to focus on what are the action 
items, how do we act on that. A major question is what is 
dyslexia and what does dyslexia look like. I will just say very 
quickly, I don't think the people in the room with you right 
now would respond this way, but far too many people, when you 
ask them what is dyslexia, they get a puzzled look and say, 
``Oh yes, that's when you read or see letters backwards.''
    No.
    Senator Cassidy mentioned our conceptual model of dyslexia 
as a sea of strengths, and here you can see what we envision is 
an encapsulated weakness in decoding and later on in fluent 
reading, but that encapsulated weakness is surrounded by a sea 
of strengths in higher level cognitive functioning, critical 
thinking, reasoning, problem-solving.
    You have this paradox. You have the weakness and the 
strengths. The goal is to identify the weakness and remediate 
it, but also to identify the strengths and allow students and 
others access to these strengths, and that is most typically 
accomplished through accommodation.
    This is very important. We have come to a stage of science 
in dyslexia where we have a pretty good idea of the origin of 
the difficulties, and that is the individual who is dyslexic 
has difficulty getting to the sounds of spoken language. That 
tells us what to look for.
    What are the symptoms of dyslexia? They're not sort of 
random. They make sense in light of what science has taught us 
about dyslexia. If you have difficulty getting to the sounds of 
spoken language, you will have symptoms of difficulty with 
spoken language; very often, of word retrieval. The person, the 
child and the adults know what they want to say and the problem 
isn't at a higher level but actually at a lower level in 
actually uttering the word.
    People who are dyslexic have trouble associating the 
letters with the sounds that represent the letters, affecting 
initially accurate reading and over time fluent reading, which 
is the ability to read not only accurately but rapidly, 
automatically, and with good comprehension.
    It also affects spelling, and also the ability--if you've 
had difficulty learning your basic primary spoken language, you 
can almost predict that that individual will have difficulty 
learning a second language, a foreign language.
    Here we have the science and the knowledge, but yet it's 
not getting translated. It has stopped. So what are the 
barriers? It's amazing. There are far too often schools who are 
unwilling to diagnose or even accept a diagnosis of dyslexia. 
It doesn't make sense, but that's the way it is. Or schools who 
will say I don't believe in dyslexia. My response to that is, 
in the case of religion, you can choose whatever religion to 
believe in, but in the case of a proven entity, it's not a case 
of I believe or don't. It's a fact, and in order to help our 
children, we have to utilize the science about dyslexia.
    Also, I'm so happy that discussions of accommodations are 
also part of this hearing because very often schools fail to 
provide both evidence-based interventions and accommodations. 
It's very important that, yes, children have difficulty in 
reading, but they have difficulty, as I mentioned, in spelling, 
in learning a foreign language, and these difficulties affect 
the whole child. A barrier is thinking in very narrow silos and 
not broadening our interest in the child and in the whole 
child.
    This is very exciting. What you are seeing here are data 
that come from a paper that will appear in the Journal of 
Pediatrics next month and is already online currently. You can 
see here the orange represents typical readers, the blue 
dyslexic readers, and here are their grades in school. You can 
see this is the achievement gap between typical and dyslexic 
readers.
    Look over here. Look at that. This is 1st grade. Look at 
the size of that achievement gap. People say, oh, let's wait 
until 3d or 4th grade. That's too late. An achievement gap, and 
a very big one, is already present in 1st grade. We must screen 
for dyslexia, identify it, and then provide evidence-based 
effective treatments for it.
    What do we do about it? Well, Dr. Bennett Shaywitz and I 
are really passionate about dyslexia. It turns out we all can 
visit schools, speak to many people, and do research. Our very 
firm conclusion is that it is in the best interest of a 
dyslexic child to attend a specialized school for dyslexia, and 
that's in keeping with having an early diagnosis, an early 
intervention, screening students for dyslexia early on.
    A specialized school is where the climate is right, and by 
that I mean the atmosphere in the school, where everyone is on 
board. It's not just the reading interventionist that pulls 
that child out for 45 minutes twice a week, but it's every 
teacher. It's the principal. It's the PE teacher. Everyone is 
on board, and that becomes incredibly important.
    Classes are small. Evidence-based methods are used. The 
teachers are knowledgeable, flexible and caring. This is really 
important. What you have in a specialized school is consistency 
in instructions across all classes, which is very different if 
a child is in a regular school and is pulled out for the 45 
minutes or so. What happens when that child goes to his or her 
History class or Social Studies? The teachers typically have no 
idea what that child's reading is like. Whereas the reading may 
be one way during the reading instruction, it doesn't cross 
into other areas of instructions. In fact, teachers may be 
angry at the student: ``Oh, I thought you knew this. Why can't 
you answer this question?''
    What happens when you have a specialized school, the 
teachers form a team. They all communicate and support one 
another because they want to support the child. That's very 
rare in non-
specialized schools.
    Here is a wonderful school. It's the Windward School in New 
York, and they do wonderful work. The tuition is $52,000 a 
year. I think it's good for those who can afford it, but think 
of how many people can't. What about middle-class children and 
disadvantaged children?
    The question is--that's one model--are there any other 
models that work? I'll say there are, and right where you all 
are.
    Here's a model that works, a specialized school for 
dyslexia, the Louisiana Key Academy, which is free to all 
dyslexic students. I see there the principal, Evelyn. I see 
teacher Dale Smith. I see my hero, Dr. Laura Cassidy, who not 
only started this school but works harder than almost anyone I 
know to make sure this school serves all children optimally. 
There's one of the students.
    Hold on. We're trying to fix something. I'll try to go 
quickly. I'm from New York, so I can speak very quickly.
    [Laughter.]
    Accommodations basically are essential to dyslexic students 
based on scientific knowledge, the law, and ethics. Students 
who are dyslexic can often think at the highest levels, but 
they can't read fluently, quickly, or automatically. It's 
critical for tests to measure ability rather than disability, 
and accommodations level the playing field. It's especially 
important in high-stakes tests that they be appropriate for 
students who are dyslexic, or the results will be incorrect and 
misleading. I must say, the Cassidy office has been in the 
forefront of supporting students in terms of accommodations.
    I'll finish in 2 minutes.
    There's neurological evidence. I won't go into it now. The 
recommendation is schools shouldn't ignore it, and to create 
and support specialized schools like the state-of-the-art LKA 
(Louisiana Key Academy) model.
    This is the last slide, to provide students with the 
knowledge about dyslexia. That's empowering, because it 
provides the student with self-understanding and self-awareness 
of what she or he has and what they need to do. It also 
provides students with a community to join. They know they're 
not alone. For the parent, teacher, and importantly the 
student, the knowledge that he or she is dyslexic brings with 
it the information that that student is not stupid or lazy.
    Thank you.
    [The prepared statement of Dr. Sally Shaywitz follows:]
             Prepared Statement of Sally E. Shaywitz, M.D.
    Good morning Senator Cassidy and fellow panel members. I too, thank 
you for the opportunity to speak with you about the science of dyslexia 
and share with you the tremendous scientific progress that has been 
made in dyslexia. Following Dr. Bennett Shaywitz, I, too, will focus my 
statement on dyslexia as an explanation and potential solution to the 
national epidemic of reading/school failure.
    My name is Sally Shaywitz and I am a physician-scientist. The 
Audrey G. Ratner Professor in Learning Development and co-director of 
the Yale Center for Dyslexia & Creativity at the Yale University School 
of Medicine. I am a member of the National Academy of Medicine of the 
National Academy of Sciences, and have served on the Advisory Council 
of the National Institute of Neurological Diseases and Stroke (NINDS). 
the National Research Council Committee on Women in Science and 
Engineering, co-chaired the National Research Council Committee on 
Gender Differences in the Careers of Science, Engineering and 
Mathematics Faculty and have served on the congressionally mandated 
National Reading Panel and the Committee to Prevent Reading 
Difficulties in Young Children of the National Research Council. I am 
also the recipient of an Honorary Doctor of Science degree from 
Williams College.
    I speak to you as a physician-scientist. As a physician, I have all 
too many memories of sitting by an ailing child's bedside, wishing so 
desperately that we had the knowledge to help that child. As a 
physician I know the power of science and how once new knowledge 
becomes available we act quickly, indeed, race to put that knowledge to 
good use. We want to close that knowledge gap and improve the lives of 
the affected children. When I sat on the Advisory Council of the 
National Institute of Neurological Disorders and Stroke, we constantly 
asked ourselves: how have we benefited mankind, how has our research 
improved the well-being of children and adults.
    Given that there has been so much scientific progress, we must take 
definitive steps to translate this remarkable scientific progress into 
practice. A fundamental question we can now address is what is dyslexia 
and what does dyslexia look like.
                        the paradox of dyslexia
    Dyslexia is a paradox, the same slow reader is often a very fast 
and able thinker--giving rise to our conceptual Sea of Strengths model 
of dyslexia as a weakness in getting to the sounds of spoken words 
surrounded by a sea of strengths in higher level thinking processes 
such as reasoning and problem solving. Reflecting this paradox are many 
eminent dyslexics--financier Charles Schwab, attorney David Boies, 
cardiac surgeon Dr. Toby Cosgrove, Hollywood agent Ari Emanuel, 
producer Brian Grazer and economist, Diane Swonk. On the other side of 
the coin are many who are not identified, and do not receive evidence-
based instructions, continue to struggle to read and see themselves as 
failures. Sadly, these boys and girls have no knowledge of what their 
difficulty is or that it even has a name, have no self-understanding, 
come to view themselves as dumb or stupid, see themselves as not meant 
for school, suffer low self-esteem, often drop out of school with a 
loss to themselves, to their families and to society.
understanding the origin of the difficulties leads to an understanding 
                      of the symptoms of dyslexia
    With the phonologic deficit recognized and validated, it is now 
possible to understand and to predict the symptoms emanating from this 
basic difficulty, which can be both observed and measured, resulting in 
an accurate diagnosis of dyslexia. Dyslexia is a language-based 
difficulty and impacts spoken language, for example, word retrieval 
difficulties: reading, initially impacting reading accuracy and then 
reading fluency, the ability to read not only accurately, but also 
rapidly and automatically with good understanding. Not being able to 
read automatically, dyslexic readers must read what I refer to as 
``manually,'' requiring the output of large amounts of effort and 
consuming much of the individual's attention. A dyslexic reader lacks 
fluency meaning that he reads slowly and with great effort, although he 
may understand the content at a high level. Importantly, the dyslexic's 
vocabulary and comprehension may be quite high. Spelling is also 
problematic as is learning a foreign language--all reflected in the 
Cassidy-Mikulski Senate Resolution 275.
  barriers to utilizing scientific knowledge to enhance the education 
                          of dyslexic students
    Unfortunately, scientific knowledge is not being utilized by far 
too many schools. The major barriers include: schools that are 
unwilling to diagnose or accept a diagnosis of dyslexia and schools 
that don't ``believe'' in dyslexia. As a consequence, students are hurt 
by the failure of these schools to provide evidence-based interventions 
and accommodations. In addition, the lack of understanding of dyslexia 
leads to a failure to address the needs of the whole child. As noted, 
dyslexia affects: spoken language, reading accuracy, reading fluency, 
the ability to read math problems, to spell and to learn a second or 
foreign language. These struggles particularly when not addressed lead 
to anxiety and at times depression and loss of self-esteem, often with 
negative life-long effects.
        reading gap already present by first grade and persists
    Scientific knowledge, too, has delineated the progression of 
reading development. Reading growth is most rapid early on, during the 
first few years of school and then plateaus. In a report to be 
published in November 2015, we report the results of a longitudinal 
study of reading from first grade to twelfth grade and beyond. We find 
that as early as first grade, compared with typical readers, dyslexic 
readers had lower reading scores and their trajectories over time never 
converge with those of typical readers. These data demonstrate that 
such differences are not so much a function of increasing disparities 
over time but instead because of differences already present in first 
grade between typical and dyslexic readers. We conclude that the 
achievement gap between typical and dyslexic readers is evident as 
early as first grade, and this gap persists into adolescence. These 
findings provide strong evidence and impetus for early identification 
of, and intervention for, young children at risk for dyslexia. 
Implementing effective reading programs as early as kindergarten or 
even preschool offers the potential to close the achievement gap.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

              national reading panel and teaching reading
    Fortunately, thanks to congressional action there is now strong 
evidence of what treatment elements are effective in teaching children 
to read. In 1998 Congress mandated the formation of a National Reading 
Panel to investigate the teaching of reading. I was proud to serve on 
the panel which produced the Report of the National Reading Panel. As a 
result, today it is no longer acceptable to use reading programs 
lacking scientific evidence of efficacy: instead it should be mandatory 
to use programs that are evidence-based, proven to be effective in the 
same way that medications must be tested and proven to be effective 
before they can be approved by the FDA. Our children deserve no less. 
And yet, today, this powerful information is not being used in schools, 
children are not learning to read and giving up, and not reaching their 
full potential. We have what amounts to an educational emergency in the 
United States. Children are not learning to read with serious academic, 
economic and health consequences including, school drop-out, being half 
as likely to go on to college, significantly lower lifetime earnings, 
significantly higher unemployment, higher rates of mental health issues 
such as often incapacitating anxiety, and as reported in 2013. 
significantly higher mortality rates related to lack of a high school 
diploma. These harsh consequences harm not only the dyslexic individual 
but place our country at a competitive disadvantage.
              effective reading intervention for dyslexia
    There is much known scientifically and clinically about dyslexia 
and its impact on children. Synthesizing that information brings with 
it the strong suggestion that a dyslexic child is best served, first by 
early diagnosis which should lead to early intervention, especially 
that there are now data indicating, as noted above, that the 
achievement gap is already present and large at first grade. The size 
of this gap makes it exceedingly difficult to overcome with time. It 
provides a strong impetus to identify and address dyslexia very early 
in the student's school career. Assessment for phonological skills 
early on and/or having the child's teacher complete a relatively short 
questionnaire, such as the Dyslexia Screening Measure (DSM) which is 
based on longitudinal data, can provide data with good sensitivity and 
specificity indicating a child's risk of being dyslexic.
    Currently, dyslexic children are either not identified, and even 
if, identified provided with pull-out instructions of about 45 minutes 
several times a week. The child feels isolated and embarrassed. S/he is 
often teased and/or bullied, and returns to a class where s/he has 
missed the instructions other students have received. Most of his/her 
teachers have no idea of what dyslexia is, and believe it is reversing 
letters. This means that teachers in the child's other classes such as 
social studies, science or biology, math or literature are totally 
unprepared to understand or educate the dyslexic child. These educators 
have no or little idea of the student's reading level and how to best 
address the child's reading, writing, spelling and word retrieval 
difficulties. Points are taken off for mis-spellings in history, a 
student's difficulty in reading the words in a math problem are 
mistakenly ascribed to lack of understanding of math principles and so 
it goes. It is critical that the dyslexic child is in a school where 
the entire faculty is on board and understands dyslexia and how best to 
address the needs of a child who is dyslexic.
    Dyslexic students require frequent opportunities to interact with 
their instructor; this is only possible in small groups as noted by the 
Report of the National Reading Panel. In large groups, dyslexic 
students have little opportunity to interact with the instructor, 
perhaps once during a period, if that. This is totally insufficient and 
does not provide the opportunity for the instructions to take hold. 
Methods must be based on evidence and not anecdote or belief systems, 
e.g., ``I know in my heart that this methods works. I believe in it.'' 
Teachers must be knowledgeable about dyslexia and flexible. Dyslexic 
students are not fluent readers, this means that they may know how to 
read one moment and then, a short while later, not be able to decipher 
the very same word. It is imperative that teachers understand the 
impact of lack of fluency on reading, and similarly, are aware that if 
a dyslexic student is called on to read aloud, it is often unbearably 
embarrassing or if she is asked a question, her word retrieval 
difficulties arising from her dyslexia may result in her not being able 
to retrieve the correct word--due not to a problem in higher level 
cognitive functioning or lack of knowledge but due to her inability to 
access and retrieve the sounds of the words that are needed for her to 
articulate the word correctly. Students are in a school during the day 
going to many classes: it is critical that the child's teachers are 
united and function as a knowing and caring team that is fully aware of 
where the child is in his/her reading, how s/he is being instructed and 
the effective approaches to supporting this student in each teacher's 
subject class and is aware of, and following, the student's progress 
carefully. This requires teachers to function as a team, that is, to be 
in constant contact with one another and there to be on-going 
consistency in instructions.
    The most effective models that work for dyslexic students are 
specialized schools specifically for these students. There are a number 
of such specialized schools for dyslexic students nationally. Students 
attending such schools benefit, learn to read and succeed in their 
academic work and come to appreciate, too, that they are not stupid. 
However, what these independent schools have in common is high tuitions 
that many middle-class parents, and certainly not disadvantaged 
families, can afford. What is wonderful to see is a new model that has 
been developed, one exemplified by the Louisiana Key Academy (LKA) 
started by Dr. Laura Cassidy, which is a free public charter school 
that brings into the school and each and every classroom all the 
scientific knowledge now known about dyslexia, along with a deep 
understanding and concern for each student at the school. I have 
personally visited the school, spoken with teachers, students and 
parents and was elated to see how well the students are learning. how 
they now viewed themselves as learners rather than as school failures, 
and, perhaps, most importantly, how much pride and self-esteem they 
have developed. It is very powerful to be at a school where you are 
part of a community of dyslexic students who are bright and where you 
are no longer viewed as different, inferior and not part of the group. 
Given the terrible epidemic of reading and school failure, and the high 
prevalence of dyslexia of one in five, we must ensure that LKA is 
sustainable and strongly supported. This school has made an 
extraordinary difference for so many dyslexic students who were 
previously ignored, feared going to school and were on the path to 
academic, and sadly, life failure. The difference this school has made 
in these students' lives is breath-taking and life-affirming. This 
opportunity for a chance at success must be made available to every boy 
and girl who is dyslexic, especially those who are disadvantaged or 
African American. We, as a society, must do no less; having successful 
learners will not only benefit the student, but his family and 
community, and, indeed, the Nation. The model of LKA, a free public 
charter school is a model that works, a school that provides the needed 
``all hands on board'' climate and instructions to dyslexic students. 
Critically LKA addresses the needs of the whole child the entire day 
rather than the artificial belief that giving a child a package of 
instructions for a period a day will address the significant and on-
going needs of a dyslexic child.
                             accommodations
    Given that a student who is dyslexic has both a weakness and 
strengths, it is critical that, for example, tests, both in school and 
on high stakes standardized examinations and Common Core assessments 
actually measure the student's ability and not his disability. The 
dyslexic student may learn to read fairly accurately but hardly ever 
with fluency; he remains a slow reader albeit a quick thinker. These 
dyslexic students may know the answer to a test question, but as a 
result of their slow reading never get to reach many questions or to 
finish the test, the student simply runs out of time. Or, she is so 
anxious about finishing the exam that she races through it and misses 
questions which, given the needed time, she would be able to answer 
correctly. Thus, it is critical that students who are dyslexic receive 
the accommodation of extra time; it is not a perk but a necessity if 
the result of the test is to reflect that student's knowledge. In 
adolescents and young adults applying for high-stakes standardized 
tests for college, graduate or professional schools, the Americans with 
Disability Amendment Act (ADAA) of 2008 is highly supportive of the 
need for accommodations for those with disabilities like dyslexia that 
impair a major life activity like reading. The ADAA regulations also 
state that students should receive accommodations even if they are 
doing well in school, it is not the outcome of their performance but 
rather what they have to do to achieve the outcome.
    High school and college students with a history of childhood 
dyslexia often present a paradoxical picture; they may be similar to 
their unimpaired peers on measures of comprehension, but they continue 
to suffer from the phonologic deficit that makes reading less 
automatic, more effortful, and slow. Neurobiological data provide 
strong evidence for the necessity of extra time for readers with 
dyslexia. Functional MRI data demonstrate that in dyslexic readers the 
word-form area, the region supporting rapid reading, functions 
inefficiently. Readers compensate by developing anterior systems 
bilaterally and the right homolog of the left word-form area. Such 
compensation allows for more accurate reading, but it does not support 
fluent or rapid reading. For these readers with dyslexia, the provision 
of extra time is an essential accommodation, particularly on high 
stakes tests such as SAT, ACT and tests for professional schools such 
as LSAT, MCAT and GRE--and for the Common Core tests. The accommodation 
of extra time allows the student time to decode each word and to apply 
his unimpaired higher order cognitive and linguistic skills to the 
surrounding context to get at the meaning of words that he cannot 
entirely or rapidly decode. While readers who are dyslexic improve 
greatly with additional time, providing additional time to non-dyslexic 
readers results in very minimal or no improvement in scores.
    A special word about the Common Core State standards (CCSS) and 
tests such as PARCC, which are designed to assess whether students are 
meeting the CCSS. It can be stated unequivocally, that the CCSS and 
accompanying tests such as PARCC are totally inappropriate for students 
with dyslexia. Such tests are based on the mistaken belief that all 
students, including dyslexic students, will be fluent readers by the 
end of second grade and that all students should read at grade level 
and above, clearly an expectation that flies in the face of all that 
has been learned about the development of reading in dyslexic children.
    Furthermore, CCSS and PARCC are based on the belief that 
comprehension-
focused reading instructions using ``complex text'' should be the basis 
of reading instructions, ignoring whether or not the student can 
actually read the words in the ``complex text.'' This has had serious 
implications for dyslexic students. For example, the PARCC test for 
third-grade students is more targeted to the reading level of students 
in fifth grade and focused on reading comprehension. This has had the 
pernicious effect of schools dropping all other instructions, including 
the much-needed decoding instruction, to focus almost exclusively on 
comprehension. In addition, it is well-known that multiple choice 
questions in the PARCC are inappropriate for students who are dyslexic. 
Common Core's overwhelming focus on comprehension may be appropriate 
for students in high school but is wholly inappropriate for children in 
very early grades, especially dyslexic students who are invariably 
still struggling with and working hard to master decoding.
    Although providing extra time for reading is by far the most common 
accommodation for people with dyslexia, other helpful accommodations 
include allowing the use of computers for writing essay answers on 
tests, access to recorded books and text to voice software. Other 
helpful accommodations include providing access to syllabi and lecture 
notes, tutors to ``talk through'' and review the content of reading 
material, alternatives to multiple-choice tests (e.g., reports or 
projects), waivers of high-stakes oral exams, a separate, quiet room 
for taking tests, and a partial waiver of the foreign language 
requirement. Dyslexic students who have difficulty accessing the sound 
system of their primary language will, almost invariably, have 
difficulties learning a foreign language. Students with dyslexia most 
often have no difficulty with the mastery of high level courses. The 
problem lies in their lack of fluent, rapid reading so that it is the 
time necessary for them to read through the materials that is 
problematic. Many rigorous schools allow these students to take one 
course less during the school year and take this course during the 
summer. With such accommodations, many students with dyslexia are 
successfully completing studies in a range of disciplines, including 
science, law, medicine and education. It is accommodations such as 
these that are encouraging and allowing more students who are dyslexic 
to enter and to succeed in STEM fields.
          summary and implications of the science of dyslexia
    Yes, dyslexic children can learn to read and must be taught to 
read. It is imperative that teachers and parents learn about the 
powerful science of dyslexia, know how to identify dyslexia early on 
and to provide a positive climate where the entire school faculty is 
on-board in understanding and teaching students who are dyslexic. This 
can only take place in specialized schools where dyslexic students are 
understood, taught by evidence-based methods and are part of a 
community that they are welcomed into, rather than being isolated. We 
must not give up on teaching dyslexic children and limit a child's 
future options. Education must, and can be, aligned with science. To 
best serve the dyslexic child, we must serve the whole child throughout 
the school day and not limit his education to a 45-minute pull-out once 
a day.
    We must ensure that scientific knowledge is translated into policy 
and practice and that ignorance and injustice do not prevail. We know 
better, we must act better.
    I cannot look into the face of one more child who has lost faith in 
himself and the world, I cannot look into the face of a child's father 
who is desperately trying to hold back tears; I cannot hear once again 
about how a school told a mother, ``we do not believe in dyslexia.''
    As an iceberg is 90 percent underwater with only 10 percent 
visible; similarly, in dyslexia, we hear about the 10 percent who have 
made it. Let's not give up on the invisible 90 percent still underwater 
asking, indeed begging, to be helped.
    I am optimistic, once Congress, educators and parents are aware of 
the strong science of dyslexia, educators will want to align their 
practices and policies with 21st century science. Congress, in 
particular, can do much to address the needs of dyslexic students, to 
transform struggling students who do not see themselves as learners 
into empowered learners who see themselves as having a positive future. 
First and foremost, it is critical that all recognize that dyslexia 
cuts across all boundaries--ethnic, racial, SES, gender, national and 
political. All including Republicans and Democrats must come together 
on this human issue; dyslexia is not, and should not, be used as a 
political issue. Recognizing and addressing dyslexia, the explanation 
and potential solution to our terrible epidemic of reading and academic 
failure is in the interest of the one in five who are dyslexic, their 
families and our Nation. I congratulate Senators Cassidy and Mikulski 
who have come together to sponsor the bipartisan Senate Resolution 275 
that provides a 21st century definition of dyslexia and states, 
unequivocally, that dyslexia has significant educational implications. 
Isn't it time that the IDEA written first in 1974 joins the 21st 
century science and gives dyslexia the primacy it deserves, rather than 
being lost in the verbiage as an afterthought. Let's rise above 
political interests, acknowledge dyslexia and 21st century knowledge of 
dyslexia, including its prevalence, definition, identification, 
provision of not only evidence-based instructions but, critically, 
strong support for specialized schools for dyslexic students, schools 
whose climate of having everyone on-board and instructional methods 
allow dyslexic students to have their strengths, rather than their 
weaknesses characterize their future lives.
    Schools must not be allowed to ignore or fail to recognize 
dyslexia. We must act now. This requires creating and supporting 
specialized schools for dyslexic students using the state-of-the-art 
LKA model. We must always keep in mind: OUR CHILDREN CAN'T WAIT.
    For far too long, the word and the condition it represents, 
dyslexia, has been overlooked, not said and not used, much to the 
detriment of the millions of children who are dyslexic. Dyslexia is 
specific, highly relevant and carries with it explanatory meaning. 
Science provides its definition, epidemiology, cognitive basis, 
neurobiolog-
ical basis, developmental progression, and long-term outcome.
    Perhaps, most important of all, the greatest beneficiary of knowing 
who she or he is, is the dyslexic student him/herself. To know what you 
have has a name and explains so much of what you experience on a daily 
basis and lets you know that you are intelligent, even if you can't 
read quickly, is incredibly empowering. I have had the experience of 
telling so many children (and adults, too) that they are dyslexic and 
what that means. The absolute relief this provides can be life-
changing, and indeed, life-saving. Knowledge that you are dyslexic 
provides the student with self-understanding and self-awareness of what 
s/he has and what s/he needs to do in order to succeed. Furthermore, 
such knowledge provides students with a community to join--for many, it 
is the very first time they know they are not alone. For his or her 
parent, teacher and importantly, the student, knowledge that s/he is 
dyslexic brings with it the information that the individual is not 
stupid or lazy.
    Top priority recommendation:

    Given that dyslexia affects the whole child in every class 
throughout the school day it seems reasonable to strongly encourage the 
creation of specialized charter schools that focus solely on dyslexia. 
Recognizing the rapid growth in reading in the very first years of 
school and the already present gap by first grade the school should 
begin as early as possible, by kindergarten or first grade. The goal is 
to reach children at-risk for dyslexia early on when reading 
intervention can be maximally effective and before the students fall 
further and further behind. At such specialized charter schools, such 
as the Louisiana Key Academy, the entire educational team from 
principal to classroom teacher to physical education instructor 
understand dyslexia, it impact students in various situations and are 
on board to support the students throughout their day. Here, students 
learn and there is no bullying by students or frustration expressed by 
teachers who may not understand the impact of dyslexia. These schools 
can also serve as resources where teachers can come, spend time and 
learn about dyslexia, what it is and how it impacts a student and learn 
specific evidence-based methods for teaching reading to dyslexic 
students and how to best implement these methods.
    Other Recommendations:

    <bullet> Schools must not be allowed to ignore, fail to recognize 
or deny the reality or diagnosis of dyslexia.
    <bullet> Schools, including teachers, principals and other 
administrators and parents should make every effort to use the word 
dyslexia since it has specific, highly relevant and explanatory 
meaning; science has provided its: definition; epidemiology; cognitive 
basis; neurobiological basis; developmental progression; and long-term 
outcome. For dyslexia, knowledge of its cognitive basis indicates what 
symptoms to look for so that symptoms of dyslexia in the classroom (and 
at home) are noted and acknowledged rather than as currently happens, 
ignored or overlooked. This greater awareness and understanding of 
dyslexia and its impact will benefit both the teacher and student both 
in the teaching of reading and in the climate and attitudes within the 
classroom.
    <bullet> Using the word dyslexia provides a common language 
facilitating communication among teachers, clinicians, scientists and 
parents.
    <bullet> For the student, the knowledge that he is dyslexic is 
empowering, providing the student with self-understanding and self-
awareness of what he has and what he needs to do in order to succeed.
    <bullet> For students, knowledge that they are dyslexic also 
provides a community to join--they know they are not alone.
    <bullet> For the parent and teacher, and importantly the student, 
knowledge that he or she is dyslexic brings with it the information 
that the individual is not stupid or lazy.
    <bullet> Critically important is that schools must use evidence-
based programs that have proven efficacy; research-based simply 
indicates that there are theoretical suggestions but does not provide 
evidence that the program is, indeed, effective. Evidence-based 
programs are akin to the level of evidence the FDA requires before a 
medication can be approved for use. Many, many theoretical, research-
based approaches, when tested in the field, prove to be ineffective. 
Our children's reading is too important to be left to theoretical, but 
unproven, practices and methods. We must replace anecdotal and common, 
but non-evidence-based practices, with those that are proven, that is, 
they are evidence-based.
    <bullet> Professional development programs targeted for teachers 
must provide evidence that the students of the teachers using these 
programs actually improve in their reading performance. This is in 
contrast to some professional development programs which seem to 
improve teacher's understanding but not in a way that results in 
improvement in their student's reading performance.
    <bullet> Schools of education must ensure that aspiring teachers 
are taught evidence-based methods to teach reading and have monitored 
experience demonstrating that they are effective in implementing these 
methods.
    <bullet> Scientific evidence that reading growth is maximum in the 
very first few years of school and then plateaus together with new data 
indicating that the reading gap between typical and dyslexic readers is 
already present at first grade and persists means that students must 
receive evidence-based instructions at the start of their school 
experience and their progress carefully monitored. Waiting is harmful 
and not acceptable.

    There is so much more to tell; for those who have questions and 
want to know more, visit the Yale Center for Dyslexia & Creativity 
website: dyslexia.yale.edu or look at my book, ``Overcoming Dyslexia,'' 
which discusses the scientific basis of dyslexia and how to translate 
this knowledge into practice.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Cassidy. Derrius.

 STATEMENT OF REV. DERRIUS M. MONTGOMERY, ASSOCIATE MINISTER, 
       GREATER KING DAVID BAPTIST CHURCH, BATON ROUGE, LA

    Rev. Montgomery. Again, my name is Derrius Montgomery. I am 
here on behalf of LA Key Academy. I serve as a board member.
    Can you all hear me?
    Senator Cassidy. You have to turn on the microphone, I 
believe.
    Rev. Montgomery. Oh, much better.
    Again, my name is Derrius Montgomery. I have been in the 
education fight for about 2 or 3 years now. I joined this fight 
as an advocate originally with Stand for Children. I learned 
some horrific data, that 71 percent of 4th graders, along with 
78 percent of 8th graders, weren't able to read at grade level, 
and it frustrated me because I remember being one of those, 
probably one of the 71 percent of 4th graders that couldn't 
read.
    Thanks to my parents moving to Atlanta, GA, where I 
attended a middle school called Floyd Middle School, I got 
access to resources that were not offered to me here in 
Louisiana. That's when I discovered I was dyslexic, when I 
moved to Atlanta.
    Senator Cassidy. Derrius, can you speak a little louder, 
please?
    Rev. Montgomery. Can you hear me? OK.
    When I realized that I was dyslexic, I didn't find out 
until I was an adult. When I looked at all the studies and I 
saw some of the main symptoms, the reading and the 
comprehension piece, that kind of disturbed me because I'm a 
grown man. I'm a father of three, a husband now, but I remember 
getting teased for simply not being able to comprehend and read 
at my grade level. I wouldn't really say that my teacher didn't 
care about me. I just believe maybe she didn't have the 
resources in our little town of Opelousas to actually identify 
those traits that could have probably given me the education 
career that I needed right here in Louisiana, but I had to go 
away.
    When I think about other students, those who are right 
there in my community in the church that I serve, those kids 
can't just get up, pack up and go to another State to receive 
that quality of education.
    When I learned of the Cassidy school, I quickly wanted to 
jump on board because this is something that I feel not only 
can be a partnership with our local school district here, but 
we get to educate other teachers across our State on what it 
really means to be dyslexic and how we can all work together to 
provide those tools to those teachers so that we don't have any 
more kids falling through the gap.
    That's all I have as an intro.
    [The prepared statement of Rev. Montgomery follows:]
                Prepared Statement of Derrius Montgomery
    By the 4th grade, It was obvious that I suffered with some type of 
learning disorder. From difficulty memorizing, to difficulty of 
spelling and reading, I remember being forced to feel for many, many 
years, like I wasn't trying hard enough. Since people who suffer with 
dyslexic have no outward visible signs of their difficulties, my 
parents and educators questioned the very existence of dyslexia.
    It was not until the 6th grade at Floyd Middle School, in Mableton 
GA, where my 6th grade teacher would discover that I was indeed a very 
smart and highly motivated learner. But due to my lack of self-
confidence and the overlooking of all the tell-tell signs of dyslexia, 
it was evident that I may have come up through a system that No. 1, did 
not understand the symptoms of dyslexia, so they couldn't provide the 
necessary accommodation or No. 2, my educators and school system did 
not care to provide the necessary accommodation.
    Because of my 6th grade teacher's training, she was able to not 
only identify the symptoms of dyslexia, but also made a way for me to 
receive the proper accommodations needed to graduate high school, 
become a college graduate, then business owner and well-respected 
community leader.

    Senator Cassidy. Allyce.

STATEMENT OF ALLYCE TRAPP, STUDENT, LOUISIANA STATE UNIVERSITY, 
                        BATON ROUGE, LA

    Ms. Trapp. Hello. I'm Allyce Trapp, and I'm a senior here 
at LSU. It sounds like I was the exception in living in Houma, 
LA. I was diagnosed in 1st grade. My parents immediately 
noticed that I was way behind all the students in my class. I 
wasn't reading as well. That graph they showed was perfect, a 
perfect example of the students in my class, they read 
something, they understood it. When I read it, it just went 
right out. I had no idea what I was looking at.
    My parents were quick enough to catch it, have me 
diagnosed, and found out I was dyslexic in the 1st grade. In my 
school, when you are dyslexic or ADHD, you are put into the 
Project Read program in the 2d grade. From 2d grade through 5th 
grade you are put into this program, and they take you out of 
the classroom for your English and your reading and they do 
multi-sensory things with you, like work on your vocabulary 
words and making flash cards. I still do that in college. They 
just teach you a bunch of ways to study.
    Senator Cassidy. Allyce, can you pull that microphone up? 
People are listening online.
    Ms. Trapp. Oh, I'm so sorry.
    Senator Cassidy. Just a little bit closer.
    Ms. Trapp. OK. They told me different ways to study, and 
they went all the way back to the beginning with basic words 
like ``it'', ``cat'', ``sat''--just things I should have 
learned in kindergarten but I didn't because I just couldn't, 
just couldn't retain it.
    That's what Project Read did for me, and because I had that 
program, I caught up with everyone else in my grade. By the 
time I was in 5th grade and I was out of the Project Read 
program and put into the Resource program, I was caught up, and 
that's because it was caught early. And, yes, it does happen as 
early as 1st grade. They could have noticed it in kindergarten 
if they really wanted to, because I was that far behind that 
early.
    I remember not learning how to tell time on a watch, like 
the actual watch, until I was in 8th grade; learning Spanish 
because I didn't learn that in 1st grade because it went in one 
ear and right out the other.
    The accommodations, I can't stress enough that my life 
completely changed after having those accommodations. If I 
didn't have that, I wouldn't be at LSU. I would be in Houma 
doing God knows what. I wouldn't be in school, that's for sure. 
It completely changed my life because before that, I don't 
remember this because I was young. My mom said I'd come home, I 
would be discouraged, I had no motivation, low self-esteem. 
What kindergartener do you know who has low self-esteem?
    It's because of dyslexia, because they see all the other 
students who are picking up everything, who are learning 
everything, and they're not. It's like, what's wrong with me? 
Why am I dumb? There's nothing wrong with the student, it's 
just that they have to learn a different way, and that's what 
these accommodations taught me, that I am just as smart as 
everyone else, I just have to learn a different way. That's 
what having all the accommodations through elementary school 
and high school, and now in college, gave me. I had extra time 
on the ACT, and I'm so thankful for that because if I didn't 
have that, I would not be at LSU, I would not have gotten that 
score that I needed.
    I had unlimited test time. I could take each section as 
long as I wanted. I zipped through certain sections, but I took 
that math section for 2 hours, and that got me here. I just 
need small, little things like that, got me where I needed to 
be.
    Because I had a few teachers who really cared about me and 
really wanted the best for me, and had a few small 
accommodations and parents that cared about me and wanted to 
get me diagnosed, I'm here. I have a great future ahead of me. 
I'm planning to go get my Master's in Business Administration, 
something that wouldn't even be a concept if I hadn't been 
diagnosed, and it's all because I was caught early and I was 
given a few small accommodations early on.
    I think if every student had that, they would all be fine. 
They would all be in college, they would all be productive, 
highly motivated, highly educated. They'd have the world at 
their feet. I think that's something that definitely needs to 
happen.
    That's all for me.
    [The prepared statement of Ms. Trapp follows:]
                   Prepared Statement of Allyce Trapp
    Hello, my name is Allyce Trapp, and I am a senior at Louisiana 
State University. I cannot emphasize enough the importance of having 
academic accommodations throughout my life. Before being diagnosed with 
dyslexia, I struggled with academics in kindergarten and was beginning 
to fail the first grade. As a consequence, I suffered from low self-
esteem and was frustrated with my inability to learn. Thankfully, my 
mother had me tested for a learning disability, and I was diagnosed 
with dyslexia in first grade and began Project Read and a program 
called Resource in second grade. Without this diagnosis, I would not 
have been able to enter these programs and get the help that I needed. 
I watched friends who were not tested and did not get help struggle 
throughout their school years, which is something that could have 
easily been avoided.
    From that point on, I started to learn and retain what I was taught 
thanks to the teaching methods employed. Project Read started their 
students back at the beginning. For example, we went over the spelling 
of basic words like ``it,'' ``cat,'' ``sat'' and so on, all things I 
should have learned in kindergarten. Project Read took me out of the 
classroom and into a separate room with other students who struggled 
with learning disabilities. Project Read gave me a safe and comfortable 
environment to learn with other students like me. The teachers used a 
multisensory approach to learning such as tracing our vocabulary words 
in trays of sand and writing information on flashcards, which I still 
do today. This program gave me confidence in and out of the classroom 
and can be accredited with shaping the student I am today.
    I continued Resource upon entering high school. The Resource 
program offered typed notes for my classes, a quiet room with teachers 
on hand for assistance and extra time allotted for exams. When I went 
to take the ACT, I was again offered extra time and was placed in a 
quiet classroom where I could work at my own speed. Because I had 
sufficient time to take this extremely important exam, I made the score 
I needed to get into LSU. Now at LSU, I am registered in Disability 
Services, which offers me similar accommodations to those I had in high 
school. Thanks to the skills that Project Read gave me, I personally do 
not need the accommodations granted to me in college that some students 
do very much need.
    Project Read allowed me to achieve my early academic goals and 
helped me become a successful student. Without Project Read, I would 
most likely have lost my motivation to learn. Because I was diagnosed 
and helped early on in my life, I was able to grow and adapt to my 
disability, and I am now a successful and confident college student. I 
am graduating in May with a degree in Mass Communications and have 
plans to attend graduate school to pursue my MBA.
    What can Congress do for students like me? First and foremost, I 
would like to stress the importance of early testing for children who 
struggle. Second, all students with dyslexia should have access to 
programs like Project Read so that they do not fall behind in their 
studies. Finally, the public as a whole should be better informed about 
dyslexia and other learning disabilities. A learning disability is not 
a symptom of low IQ or insufficient effort. The public needs to know 
that learning disabilities are beyond the students' control but can 
successfully be treated.
    My graduation from LSU and my dream of going to graduate school 
would never have been possible had I not been tested early and 
accommodated throughout my life. Thanks to the early intervention and 
consistent support I was provided, I have a real chance of being a 
highly productive member of society. I only recently became aware that 
not all students receive the same accommodations as me. It saddens me 
to think that not everyone has the same help and support that I did. If 
all students had the help that I did, they would have just as bright of 
a future as I do. So I am asking you, the Members of Congress, to 
please give these students a chance to live without being held back by 
dyslexia.

    Senator Cassidy. Margaret.

 STATEMENT OF MARGARET LAW, CALT, DYSLEXIA & 504 COORDINATOR, 
             CENTRAL COMMUNITY SCHOOLS, CENTRAL, LA

    Ms. Law. Good afternoon. Thank you for the invitation to 
participate in the hearing for a cause that is really near and 
dear to my heart, and that is the education of the dyslexic 
student. My contribution will be from the perspective of the 
dyslexia and 504 coordinator that I am in Central Community 
Schools, with a focus on accommodations.
    All districts and everybody in this audience may know that, 
but all districts have to abide by Bulletin 1903, and that's 
the regulations and guidelines for the implementation of the 
Louisiana Law for the Education of Dyslexic Students, and that 
allows for the identification and the receiving of 
multisensory-structured language services.
    Once a student has been identified at-risk and goes through 
an evaluation and is identified with characteristics of 
dyslexia, which is what this bill requires, or this law 
requires, they are enrolled in a multisensory-structured 
language class in our district and in other districts, and then 
the committee looks at them to see if they're eligible for 
section 504 accommodations or a 504 plan. The 504 is not like 
IDEA, which is an education benefits plan. 504 is a non-
discrimination law that guarantees the disabled child has the 
same ability to access education in the same fashion as the 
non-disabled child.
    A school building-level committee is in charge of 
identifying if they are 504 and selecting the accommodations 
that are data-
driven that that child needs, and those accommodations occur in 
the classroom and on high-stakes testing. For kids in school it 
would be PARCC, LEAP, ACT, the EOCs for those kids in college 
or high school. The goal of accommodations is to provide the 
dyslexic student with the support they need to succeed.
    Two of the most critical accommodations I want to talk 
about are extended time and tests read aloud. Extended time is 
needed for those kids who have poor decoding abilities or they 
are very slow at reading. I am asked how much constitutes 
extended time? I had a conversation with the 504 coordinator 
for the State, and she told me that extended time should be 
based on what the child needs. You should observe to see how 
much time they need to take a test, and then that's what they 
should be given.
    Tests read aloud are needed for the phonological deficits. 
When a student has to try to read something they can't read, it 
causes anxiety, it causes stress.
    I have two examples to share with you. I met this young man 
in our school system in middle school. He was identified with 
characteristics of dyslexia and assigned tests read aloud and 
accommodations. He is a talented athlete. He finished the MSL 
program in 9th grade. He has been offered a scholarship already 
to play his chosen sport at a college. Accommodations helped 
him keep his GPA up so that he could do that. He is going to 
live his dream because he was able to get the accommodations 
that he needs. As a matter of fact, the college has already 
contacted me and asked me what accommodations he will need to 
succeed in college, so I thought that was great.
    A second student I met when I was an academic therapist at 
a private school. A high school teacher came to tell me that 
she had a struggling reader. I met with him. He had his hoodie 
up over his head. You couldn't see him. I said, what can I do 
for you? He said, I want to be able to read like everybody 
else.
    He was tested, entered our MSL program, received 
accommodations. The biggest thing for him was that not only did 
his reading improve, but the big thing was his self-confidence 
improved, and one of his teachers told me that he actually 
volunteered to read in class. That is a feat that the dyslexic 
student shies away from, and she was very proud of him, and it 
was great to see him in the hallway. He wasn't hidden in his 
hoodie. He was looking at people and he was smiling.
    The IAP and the accommodations needed change over time. The 
parent is always the advocate when they are younger. As the 
child gets older, they become advocates for themselves. They 
sit in on the IAP reviews. ``Yes, I need that accommodation.'' 
It's data-
driven. They receive those accommodations.
    College, as they have already spoken about, I get parents 
who ask me about accommodations in college. There are no 
official 504 plans in college. The student has to be an 
advocate and go to the disabilities department where they ask 
for accommodations. The college will ask for documentation that 
they have that disability, and then they will ask for 
documentation on what they used, which ones they were given in 
high school, and then they will decide if those accommodations 
are merited and they can earn them at the college level.
    In conclusion, accommodations support the dyslexic student. 
They lead to academic success. They build self-confidence, and 
most of the time and many times they let that student achieve 
the goal of what they want to do, or a personal goal.
    [The prepared statement of Ms. Law follows:]
                   Prepared Statement of Margaret Law
    Being Dyslexia and 504 Coordinator for a school district in 
Louisiana encompasses many responsibilities. A coordinator must be 
educated about dyslexia and be knowledgeable about the Section 504 Law. 
A coordinator must insure that the provisions of Bulletin 1903, 
Regulations and Guidelines for Implementation of the Louisiana Law for 
the Education of Dyslexic Students be properly implemented. Finally, a 
coordinator must remember that the needs of the student come first.
    LEAs must follow Bulletin 1903. This publication provides for,

          ``Implementation of R.S. 17:7(11), Louisiana's Law for 
        identification and services within the regular education 
        program for students demonstrating characteristics of 
        dyslexia.''

    While this Louisiana Law states that LEAs must only identify for 
characteristics of dyslexia, there is also a statement in the law that,

          ``Any private evaluation presented by the parent must be 
        considered by the school system's pupil appraisal staff for 
        review and interpretation.''

    Once a student has been identified by an initial Section 504 
evaluation with characteristics of dyslexia (Bulletin 1903) and/or the 
LEA has received a diagnosis of dyslexia by way of a private 
evaluation, a student may be eligible to receive services and 
accommodations for characteristics of dyslexia or dyslexia. An 
Individual Accommodation Plan (IAP) is written and accommodations are 
selected by the consensus of the School Building Level Committee 
(SBLC). Accommodations are selected that will remove barriers caused by 
poor reading and writing and allow the student to access education in 
the same way as non-disabled peers. Also, the student is enrolled in a 
Multisensory Structured Language (MSL) Program.
    The SBLC is assigned the task of selecting accommodations for the 
student's IAP. Accommodations must be data-driven with the intent of 
leveling the playing field for the dyslexic student. Section 504 
accommodations are intended to support the student but not create an 
advantage.
    While the selection and implementation of appropriate 
accommodations seems straight forward, it can be a challenging process. 
Consideration must be given in selecting accommodations in four 
categories: setting, presentation and response, time demands and 
behavior. Accommodations are also selected for standardized tests.
    One frequent accommodation for the student with characteristics of 
dyslexia is extended time. Deciding a fair amount of time for each 
student poses a challenge. I am frequently asked what constitutes a 
fair amount of time. While this seems a straight forward question, it 
is sometimes complex. For example, the parent of a student called the 
State 504 coordinator and voiced concerns regarding the amount of 
extended time her child received for testing. The State 504 coordinator 
suggested that defining a set amount of time for extended time may 
possibly be a point that is arbitrational. A better approach was 
suggested. This approach involves monitoring the time it takes a 
student to take a test and then calculating the average extended time 
used. In this way, the accommodation is specific to the needs of that 
particular student.
    Another accommodation needed to support most students with 
characteristics of dyslexia is tests read aloud. It is very frustrating 
for a student who has phonological deficits to read and demonstrate 
what is learned when they are struggling to read text. It causes 
anxiety and impedes success. With accommodations success is viable.
    To illustrate this, I share the story of a middle-school male 
student identified with characteristics of dyslexia. The student began 
receiving services through an MSL Program and an IAP was written with 
accommodations of extended time and tests read aloud. These 
accommodations supported the student so that content learned could be 
assessed fairly.
    This student completed the MSL Program in his first year of high 
school. He is a talented athlete. It is important that the student 
maintain a strong grade point average so that he can pursue his goal of 
playing his chosen sport at the collegiate level and possibly beyond. A 
college interested in recruiting him has already contacted me inquiring 
about the kinds of accommodations he may need for support in college.
    A second example follows. When I was an Academic Language Therapist 
in a private school, I was approached by the teacher of a high school 
student who was a struggling reader. When I first met this young man, 
he sat with his head down and did not make eye contact with me. I asked 
him what I could do for him and he said he wanted to be able to read 
like everyone else.
    The student began receiving instructions through an MLS Program. He 
began receiving accommodations of extended time and tests read aloud. 
His grades improved with these two accommodations. He was able to 
access education when his struggle to read was removed. Most 
importantly his self-confidence increased. So much that he volunteered 
to read aloud in one of his classes. Not an easy feat for a student 
with characteristics of dyslexia but a milestone for this student! When 
our paths crossed on campus, I was delighted to see that his head was 
held high and a smile was on his face.
    As a district coordinator, I am asked by parents if students will 
be able to receive 504 accommodations in college. I explain that there 
are no formal Section 504 Plans in college but colleges will issue 
accommodations. The student must advocate for themselves and contact 
the disabilities department at the college and inquire about the 
process of receiving accommodations. Normally, a college will require a 
student to provide documentation of their disability and provide 
documentation that accommodations were used in high school. However, 
colleges make their own determination on what the student needs to 
perform academically.
    The IAP and selection of accommodations evolves and changes over 
time. Early on, the parent is the sole advocate for their child and may 
play a major role in selection of accommodations. But as the child 
progresses through school, they learn to become their own advocate in 
selecting accommodations.
    The following is an illustration of a parent who became an advocate 
for their child. The parent of a middle school student reported that 
her son was not receiving extended time on a test that measured his 
reading level. So, the parent advocated for son's extended time. He was 
allotted the accommodation, and his measured reading level increased 
from fourth to eleventh grade.
    Part of my responsibilities as dyslexia and 504 coordinator is 
teacher training. At the beginning of the year, I provide school 
counselors with an overview of section 504. A significant part of 
training is instructions on how to select appropriate accommodations 
and how the accommodations can be implemented in the classroom to 
support the student.
    Administrators, counselors and teachers often inquire about ways to 
provide the accommodations of tests read aloud, extended time and small 
groups if a number of students in a class require these accommodations. 
First, I encourage them to use text to speech programs for tests read 
aloud. For a small group, I encourage teachers to organize the 
classroom at the first of the year to include a small group testing 
area. Occasionally, teachers asked if students can leave the room to 
receive accommodations. A reminder is given that Section 504 law 
mandates that accommodations be given in the least restrictive 
environment.
    I also pass on a reminder received from a workshop on Section 504 
presented by Hammonds, Sills, Adkins & Guice, LLP, Attorneys at Law. 
This reminder states:

          `` The Section 504 Plan or IAP is essentially a contract. If 
        a service is written into the Section 504 Plan and signed by a 
        designated representative of the school system, it must be 
        provided to the child.''
          `` The lack of staff, lack of money or unwillingness of the 
        staff to perform the duties are insufficient to justify a 
        failure to implement the Section 504 Plan as written. If the 
        service is not needed, the Section 504 committee has a 
        responsibility to address the removal of the service from the 
        child's Section 504 Plan.''

    In order for the dyslexic student to be successful, they must be 
given accommodations that allow them to access education in the same 
way a non-disabled student accesses education. In this way, support 
leads to success, which leads to self-confidence, which leads to the 
achievement of a personal goal.

    Senator Cassidy. Thank you all.
    This is a Senate hearing, so unfortunately you in the 
audience are not allowed to ask questions. What I will try to 
do is, based upon what we've heard, ask questions that would 
hopefully reflect what your interests are.
    Derrius, you describe up until 4th grade you are recognized 
as bright and no one knows what is going on with you. Were you 
the young man wearing the hoodie who wanted to read but 
couldn't? Do you know what I'm saying? No. 1, I would just like 
to know how you felt.
    And No. 2, when you went to Atlanta, what was it about that 
teacher that she recognized the signs of dyslexia, and what did 
they do to help you?
    Rev. Montgomery. To answer both questions, for me it was 
not only being held back in the 1st grade, but the tell-tale 
sign was being held back in the 6th grade and moving to 
Atlanta. The teacher saw my academic track record, and nothing 
indicated that I was a problematic child or anything like 
that--but reading, the comprehension piece. Again, all of this 
is secondhand because my mom told me most of it, right? I don't 
have that great of a memory.
    I do remember as a second-time 6th grader being told that 
Louisiana had cheated you, and I really didn't understand what 
that meant. That came--I'm actually saying it nice, because the 
teacher I had was really, for lack of a better word, pissed 
off, because she thought I was one of those children who had 
just been passed along, you see?
    What they had at this particular school was a Jump Start 
program. That program was devised for kids like myself who were 
very highly intelligent; however, our academic careers didn't 
line up to our personalities. I remember it was me and about 12 
other students in that particular Jump Start program. And I 
must say, by the end of that school year, I was actually going 
into high school, into the 8th grade. That's how much 
intensity--not only was the work intense, but it was tailor-
made just for us and I didn't have to deal with the issue of 
being pulled out of a class and given the IAP or anything like 
that and being labeled. Back in my day, it was the retarded 
kids that had to go into a different setting.
    For me, just being able to go through that was liberating, 
to graduating on time and being able to graduate on time. 
Having younger sisters coming up behind me who were straight-A 
students and me being the only boy, it just did something to my 
self-
confidence knowing that that opportunity was there for me.
    Senator Cassidy. Margaret, Louisiana cheated him. I'm told 
that the typical parish in Louisiana has less than 1 percent of 
its students identified as dyslexic. I guess, could you comment 
to that and then tell us, is it just that there's a teacher who 
is aware of the issue who then notifies someone such as you, or 
is there a formal screening program? If not, should there be?
    Ms. Law. Well, first I guess I'll have to say that in our 
district we have about 3 percent of our kids identified, so 
we're a little bit above that. We have a lot to do, though.
    I think that part of the problem is that there is not 
funding. This comes under 504, and 504 is an unfunded law. 
There's not funding even though districts have in place 
procedures to identify their kids with characteristics of 
dyslexia, and in Bulletin 1903 it says you have to do that 
between kindergarten and 3d grade. If that is not done by the 
district, for whatever reason, then that definitely penalizes 
the child.
    Funding, to me, is always a way where you can get more 
personnel and maybe get people to follow the law the way 
they're supposed to follow the law.
    And then it's education. I talked to a teacher who is a new 
teacher and I asked her, I said what kind of course work did 
you have in college in dyslexia? She said, ``Well, in my 
special education class, we had a little bit about it, and they 
also had a simulation that they did of a dyslexia program.''
    I still don't think that there's enough information out 
there, and that's still part of the problem.
    Senator Cassidy. I will ask Sally or Bennett to address 
this. I have to admit, if it affects 20 percent of the 
population, is it a principal cause for children reading below 
grade level? The only instruction she received was a little bit 
about it in a special education course. It seems as if there 
should be more.
    Ms. Law. Yes, I agree with you.
    Senator Cassidy. Sally or Bennett, would you want to 
comment on that particular issue?
    Dr. Sally Shaywitz. Well, it just strikes me as somehow 
odd, because I've heard that in Louisiana people entering 
prison are screened for dyslexia. You can do it for prisons but 
not for children entering school and perhaps help them avoid 
prison?
    I think schools of education can do a lot more than they're 
doing. I think they need to introduce dyslexia, what is known 
about dyslexia, what programs are offered as well. I also think 
that it's not just a matter of reading about dyslexia, turning 
pages, getting tested. I think what needs to be done in 
addition to course work is to actually take time and intern in, 
optimally, specialized schools like LKA (Louisiana Key Academy) 
can serve as a resource where teachers, budding teachers can go 
and spend time with the students and learn what a dyslexic 
student look like, how do they react in class, and what are the 
most effective approaches to the students, because students not 
only have reading difficulty but many, many more issues.
    We--Senator Cassidy, Bennett and myself--as physicians, 
went to medical school, but we learned even more of practical 
importance when we were interns and residents. I think any 
teaching mode has to link to an actual experiential approach.
    Senator Cassidy. Sally, you mentioned it in your talk, but 
could I also ask you to address once more, Allyce's parents 
suspected she had an issue in kindergarten or 1st grade. I am 
so impressed with that. My daughter, I was totally unaware 
until she was older. My wife is rolling her eyes right now 
saying I always would be unaware.
    [Laughter.]
    What would you ask a parent to look for or a teacher to 
look for when a child is in kindergarten or 1st grade?
    Dr. Sally Shaywitz. That's the really exciting thing about 
scientific progress, because now that we know that the basic 
difficulty is getting to the sounds of spoken language, we can 
look for not even non-reading signs. For example, even early on 
in delayed language, a toddler not appreciating the nursery 
rhyme because in order to appreciate a nursery rhyme you have 
to be able to pull apart the spoken word and focus just on the 
end--mat, hat, cat. These children not only don't appreciate 
nursery rhymes, they often lack an appreciation of any kind of 
rhyme. They may mispronounce words and have difficulty learning 
and remembering the names of letters, or they don't even know 
the letters in their own name.
    As they go on through kindergarten and 1st grade, it's 
difficult for them to appreciate that spoken words come apart, 
like ``cowboy'' is made up of two parts, ``cow'' and ``boy''. 
They have a great inability to associate letters with sounds, 
and the reading effort shows no relationship to the letter to 
the sound.
    What is really upsetting is these children, sooner than we 
often appreciate, turn off to reading. They claim how hard 
reading is, and when it's time for reading they run away or 
learn that if their behavior is bad, they get asked to leave 
the room so they don't have to be called on to read aloud.
    I think it's important for parents to be aware of this, but 
also not to accept, oh, this is just developmental, or she'll 
outgrow it, or it's just a glitch. It has to be attended to and 
not excuses and delays accepted.
    Senator Cassidy. Let me also ask you to comment. Derrius' 
testimony spoke to how once he was identified, it sounds like 
it was boot camp for reading, and for a year it was wraparound 
and pervasive. You mention in your testimony, Sally, that 20 
minutes twice a week is not adequate. Again, could you just 
speak to that?
    Dr. Sally Shaywitz. OK. I'm really glad you asked me about 
that. You know, dyslexia affects the whole child. It's not in a 
silo that if you pull the child out and inject them with some 
instructions that will solve it.
    What happens if that happens, the child comes back into a 
class where they have missed what's going on. That child also, 
when he or she goes to another subject--Social Studies, 
History, Literature--the teacher has no idea about the child's 
reading problem, and the child is expected to do what everybody 
else does, and very often the teachers will get frustrated or 
annoyed, ``Why don't you know this?,'' without any idea of what 
the child's reading level is.
    What you need, and what I had said previously, is to have 
the teacher in each child's subject class be aware of where he 
or she is in reading, what helps them, what's effective, and to 
be able to follow the student's progress carefully, and that 
there's consistency in instructions. You need to be in a school 
where the climate is all hands on board, so the climate and 
instructions to dyslexic students is all unified. It needs a 
whole child approach during the entire day rather than the 
artificial belief that giving a child a package of instructions 
for a small period a day will address the significant, ongoing 
needs of a dyslexic child.
    Senator Cassidy. Allyce, you told me earlier you attended 
Vanderbilt Catholic. Vanderbilt Catholic is a parochial school, 
as you might guess, which has instructions for dyslexic 
students integrated in their program. Dr. Sally Shaywitz just 
said you want to integrate it. Vanderbilt Catholic does 
integrate instructions for dyslexia. Could you speak to that 
from your experience at Vanderbilt Catholic?
    Ms. Trapp. Integrate as in--the only thing that they did 
differently was that you had the option of being taken out of 
the classroom, which is something I found interesting because, 
yes, they would teach you in class, you never had to leave the 
classroom at Vanderbilt, unlike at St. Francis when I was in 
elementary school and you'd leave the classroom. Once you got 
to high school, you're in class with everyone, and all the 
teachers knew. They knew who was disabled, who had learning 
disabilities and you only had to leave the classroom if you 
wanted to, and that's only during testing times.
    That was only if you wanted a quiet place to go to and you 
wanted teachers there who could read the test to you. I 
honestly didn't even need that by the time I got there because 
I had dozens of people who were late in the game.
    So, yes, it was pretty much integrated by the time I got to 
Vanderbilt. I was very lucky to be in a parish that already had 
a very sound system that was in place for students with 
learning disabilities.
    Senator Cassidy. I'm struck that you advocate for yourself 
at LSU. Margaret said oftentimes in college you have to go and 
tell folks, listen, I need an accommodation. You had just told 
us that when you take the math test, you are accommodated for 
it. I think one of Sally's slides I took notes from is the 
child has to learn to advocate for himself or herself. I gather 
that your experience with dyslexia appears to have taught you 
that ability to self-advocate. A fair statement?
    Ms. Trapp. Oh, absolutely. You have to know how to advocate 
for yourself because you won't always have a parent or a 
teacher there doing it for you. You have to be able to explain 
yourself because when you're on the playground as a child, 
you're not going to have a teacher there telling your friends 
why you were not in class today. You're not going to have a 
parent there explaining to other students you meet why you 
speak differently, why you do things differently from them. You 
have to be able to advocate for yourself.
    By the time you get to high school, most people know. Most 
of your friends understand. You always have a friend who says, 
``I don't believe in dyslexia'' or ``I don't think you're very 
smart,'' and you have to advocate for yourself. That's when you 
have to step up to the plate and say you don't have to believe 
it's a real thing, but it is. You don't have to believe it.
    It took me about 4 years to get my best friend to actually 
believe I was dyslexic and that it was a real learning 
disability. He thought I was just lazy and I didn't want to 
study, which was not the case. If you saw the stack of flash 
cards I have in my room each day--that was not the case.
    You have to advocate for yourself. You have to be your No. 
1 champion, honestly, because if you don't tell people what's 
going on with you and you don't understand yourself and your 
own learning disability, how do you expect anyone else to, and 
how do you expect to get the accommodations?
    Senator Cassidy. Derrius, I'm struck, you now advocate for 
others.
    Rev. Montgomery. Yes.
    Senator Cassidy. Your empathy with the children who 
struggle brought you to seek out the opportunity to serve on a 
board that would minister to those struggling children. I think 
that's what I gathered. Would you comment on that?
    Rev. Montgomery. Yes, and the fact that I have three 
toddler boys that I'm raising right now was the fire that was 
lit, you know? I don't want them to go through it. My wife and 
I are probably driving Dufrocq crazy. That's where my oldest 
son attends. Because we're very, very much still involved. His 
mom is a smarty, right? Dad is the one with the little 
struggles. Anything that he deals with, of course they're 
looking on my side. We just want to make sure that he's 
accommodated properly.
    When I think about the lack of a father in my own family in 
terms of relatives, I have no choice but to advocate for kids 
outside of my own home.
    Senator Cassidy. You mentioned your child in 1st grade. If 
I can ask you, right now we're trying to do a reauthorization 
of what is called the No Child Left Behind or the Elementary 
and Secondary Education Act. One of the things that has come up 
is standardized testing.
    Bennett, could you speak to standardized testing and the 
dyslexic, please?
    Dr. Bennett Shaywitz. Well, yes. I think this is a really 
important point, Senator Cassidy. I didn't get a chance to show 
these slides earlier, but I think that it's really critical for 
everybody to understand that the standardized tests that are 
used in dyslexic students are, in fact, inappropriate for 
dyslexic students.
    For example, I was talking about the State standards and 
the PARCC, which is designed to measure those standards. That 
State standard and the PARCC are inappropriate for dyslexic 
elementary students because the Common Core standards and the 
PARCC are based on the mistaken belief, and this is in the 
description of the Common Core, that all students, including 
dyslexic students, will be fluent readers by the end of 2d 
grade. That's what Common Core demands, and that's just not 
true. It's not true for dyslexic students.
    Also, the Common Core says all students, including dyslexic 
students, should read at grade level and above. Well, for 
dyslexic students, that's just not the case.
    The Common Core standards are comprehension-focused for 
reading instructions. Reading instructions says that you should 
use complex tests and that should be the basis of all reading 
instructions, and they ignore whether or not the student can 
actually read the words in the complex test. This really has 
serious implications for dyslexic students.
    For example, anybody who has ever looked at the 3d grade 
PARCC, the PARCC for 3d grade students is more targeted to 
reading level of the 5th grade, and it's focused on reading 
comprehension, and it's very inappropriate for dyslexic 
students. It has the pernicious effect of schools dropping all 
other instructions, including much-needed decoding 
instructions, to focus almost exclusively on comprehension.
    In addition, the multiple-choice questions in the PARCC are 
really inappropriate for students who are dyslexic who need a 
lot more context to be able to understand. Everybody should 
understand that the Common Core's focus on comprehension may be 
appropriate for students in high school or perhaps upper-level 
junior high school, but it's wholly inappropriate for children 
in very early grades, especially dyslexic students who are 
invariably still struggling and working very hard to master 
decoding.
    The danger is that the PARCC will provide misleading data, 
with very serious consequences not only for the student, but 
for the parents and for the teachers. It's not that the 
students are not doing what they should do; the test is 
inappropriate. It should not be used in dyslexic students.
    Senator Cassidy. I stepped away from the microphone, 
Bennett, to see your slides, so that was the slight hesitation.
    Sally, did you have something to say?
    Dr. Sally Shaywitz. Yes. I was listening to the 
accommodations discussion and self-advocacy, and I thought we 
heard that the school's report--that they identified 3 percent 
of their population as dyslexic, when we know that it's, I'm 
doing quick math here, it's seven times more common. Think of 
all the children who can't self-advocate because they don't 
know what they have. They have never been identified. They 
can't have, even though they're dyslexic, they can't have the 
benefit of accommodations because they don't know they're 
dyslexic.
    It's such a huge disservice on so many levels to not 
identify dyslexic children. Not only don't they receive the 
intervention and the appropriate schooling, but it follows them 
through life. They think they're not smart, they don't have 
self-awareness, they can't advocate for themselves, and even 
though they're slow readers because they are dyslexic, they 
can't even think of or apply for or receive accommodations. It 
keeps them back all through life, and that's not fair. We're 
better as a nation than that, and we can't know about dyslexia 
at the level of a school but then just ignore the children who 
need us.
    Senator Cassidy. Margaret, that raises the issue of 
funding. You mentioned that the 504 is unfunded.
    Ms. Law. Right.
    Senator Cassidy. What does it cost to screen all 1st 
graders or all elementary school kids or all new transfers?
    Ms. Law. Well, I never put an actual number to the cost, 
but in time, it takes much time, as we have 350 kids in second 
grade. Starting in January, we will begin the universal 
screening. It takes a team of teachers to go through the 
process of all the steps that you have to do for that to 
identify all of the students and then pull the ones at risk and 
then administer tests to them. It's a lot of time for the 
counselor who does the testing. I would say in the second 
semester, the counselor probably spends 50 percent of their 
time looking at universal screening in our school system, and 
we have about 350 kids, as I said, that we look at.
    Senator Cassidy. Three-hundred-fifty 1st graders, or 350 2d 
graders?
    Ms. Law. We do 2d grade, and in the month of January of 2d 
grade is our year to do universal screening.
    Senator Cassidy. Let me ask, Sally and Bennett, you can 
also weigh in on this question.
    Dr. Sally Shaywitz. Well, given the data that we now have, 
strong published scientific data showing that that achievement 
gap is already present in 1st grade, my hope is that we would 
rethink our approach to screening and begin screening as early 
as possible, kindergarten or 1st grade. There are measures for 
the child, but also new measures that teachers can use, because 
that gap, it's so hard to overcome. It's there already.
    I think we have an obligation to our children and to our 
teachers to identify this at the earliest possible time, 
because it's so hard to overcome, and it's huge. It really is 
very, very large, and it's now supported by scientific data.
    Senator Cassidy. I'm struck, in support of that, Allyce 
mentioned when she went to high school she had been 
accommodated early and therefore did not need as much help. 
Those who had not been diagnosed until later in their education 
were the ones who still needed help. The absence of early 
screening intervention ends up having persistent effects into 
adolescence.
    Again, Sally and Bennett, do the data show that?
    Dr. Bennett Shaywitz. Yes. In fact, it is persistent.
    Dr. Sally Shaywitz. Oh, my goodness, it's persistent. You 
have the additional difficulties of not knowing what you are, 
thinking you're stupid, not wanting to go to school, all the 
other consequences, and also to have avoided reading. We get 
better in reading by reading. There are so many negative 
consequences, and it becomes more and more difficult to 
remediate.
    We had the personal experience of trying to work with 
middle schoolers versus working with kindergarteners and 1st 
graders, and there's no comparison. We really have to get there 
early. When we think of, oh, it's costly, what is the cost to 
society of the child not being identified and not receiving 
what that child needs? That's huge on a personal level, on a 
family level, and on a national level.
    Senator Cassidy. Yes. I will point out that I read once 
that you can look at poor reading rates in 3d grade and predict 
the number of prison cells you need 20 years later. The cost of 
a prisoner I think is $50,000 a year or something such as that. 
If we could somehow understand that and do something at the 
earlier stage.
    Let's see if there are any other questions I had that I 
wanted to ask.
    By the way, I'm also struck, Allyce, that you feel totally 
comfortable with dyslexia, again almost fighting with your 
friend to kind of prove, you know, ``C'mon, guy, get off it.'' 
I speak to some who are older, and they don't want anyone to 
know. I know an 80-year-old guy, incredibly successful, and he 
doesn't want anyone to know that he's dyslexic, even though 
he's so successful that it wouldn't matter.
    Clearly, at some point you just became you, like you have 
blonde hair and you're tall and whatever, and it's nothing to 
be ashamed of. Is that a fair statement?
    Ms. Trapp. Absolutely. I can't see why someone so 
successful wouldn't want to talk about how he got to his 
success with dyslexia. I think that's something incredible to 
share with everyone how he did that. I think Walt Disney had 
dyslexia. I think that's incredible. It shows you that you 
don't have to have the regular processing brain to do 
incredible things.
    I'm totally comfortable with it because I don't know 
anything else. I don't know what it's like to have a regular 
functioning brain. I only know the brain that I have, and I 
love the brain that I have. Yes, sometimes I'm really 
frustrated, but I'm just like, ``Oh my gosh, I wish I knew what 
it was like having a different brain,'' but I don't. I work 
with what I have and I go with it, and it's just part of being 
me.
    I'm an extremely confident person, and I have been since I 
was a little thing, so it's like, ``all right, cool, one more 
thing, let's work with it.'' I had so many teachers who were 
like, this isn't a hindrance, it's just something else to work 
on, it's not a big deal. I have parents who said it's OK, we're 
just going to work with it, and all my friends were fine with 
it growing up.
    Of course, I had the friend who didn't believe it was a 
real thing, but he came around. My senior year in high school 
he said, ``it's real, it's no joke.'' He had seen it in action 
for 4 years.
    It's nothing to be ashamed of. There's nothing wrong with 
me. It's just a different way of thinking, and it's a whole new 
window of creativity and opportunity, and I'm doing just fine 
with it. I'm totally fine with it. It's a comfortable setting 
for me. I'm comfortable with my dyslexia. I'm comfortable with 
my disability. I don't even define it to be a disability 
because I've overcome it. It's not holding me back.
    Senator Cassidy. Derrius, you were diagnosed later in life, 
and frankly you recounted how you had a real struggle prior to 
that point. Do you find that your attitude toward having a 
self-diagnosis of dyslexia is different than Allyce's or 
exactly the same?
    Rev. Montgomery. I think mine is exactly the same. I'm 
proud to identify with it, but I have to look at my own 
successes in my own life with the disability. I have still been 
able to get married, finish school, go back to school. I 
started a small business here in Baton Rouge. I have achieved 
the American Dream, and I'm still trying to achieve it. I'm 
only 31, so I have a lot more to conquer. I think that would 
only motivate one to continue to speak out.
    Senator Cassidy. Let me ask if there are any final 
comments.
    Sally and Bennett, do you all have any final comments?
    Dr. Sally Shaywitz. It won't surprise you that I do.
    [Laughter.]
    If we remember that dyslexia is a paradox, if we think of 
the sea of strengths model, we have that encapsulated weakness 
in decoding, getting to the sound of the spoken word, but we 
also have those higher level strengths. The way we look at it 
is when a child starts school, they can go in either direction. 
What will it be? The weakness that characterizes their life or 
the strengths? That won't be determined. Are they identified? 
Are they in the proper school? Do they get the proper 
intervention?
    People who are dyslexic are filling our prisons, but 
they're also receiving Nobel Prizes and Pulitzer Prizes. The 
capabilities go in both directions. We as a society are letting 
them down by not identifying and providing what they need.
    Again, I just have to say, having visited and seen what 
happens in LKA (Louisiana Key Academy), a specialized public 
charter school that's giving so many children the opportunity, 
disadvantaged children, children of color, that they would not 
have had, and that can help ensure that it's the strengths 
rather than the weakness that characterizes their future lives.
    Senator Cassidy. Bennett.
    Dr. Bennett Shaywitz. I'll leave it there. It's hard to 
follow Sally.
    Senator Cassidy. Margaret, anything else?
    Ms. Law. I think one of the things I want to point out is 
that the students who have dyslexia have to have a specialized 
program in order for them to be a better reader and to be 
successful, and in the State of Louisiana, to my knowledge, 
there are no colleges or training centers where you can train 
to be an Academic Language Therapist. When I decided I wanted 
to go into the field of dyslexia, I had to go to Texas to do my 
training. There's nowhere in the State of Louisiana. It would 
seem that perhaps a community college or something could be 
done so that we could train and have a Certified Academic 
Language Therapist training center in our State.
    Senator Cassidy. Allyce.
    Ms. Trapp. All I'll say is thank you so much for having me 
today. I really appreciate you giving me a chance to talk about 
what it was like growing up with dyslexia and hopefully 
helping, in some small way, other students to get what they 
need.
    Senator Cassidy. Derrius, you're the clean-up man.
    Rev. Montgomery. I'm with these two here. I thank you for 
the opportunity, and I think that as long as we continue to 
have these types of discussions, both privately and publicly, I 
think the whole community will definitely get behind this 
movement and you'll start to see more people stand up and 
advocate for students of dyslexia.
    Senator Cassidy. I will finish by--first, Evelyn 
Gauthreaux, we talked about LKA (Louisiana Key Academy), she is 
the principal, so let me just point her out right there. She is 
raising her hand.
    [Applause.]
    Let me just echo what Sally said, her observation. It seems 
as if the diagnosis of dyslexia leads one to a point, and if 
there's appropriate remediation and accommodation, the struggle 
to overcome and then the subsequent success actually leads to 
insights that one would otherwise not have. If everyone is 
thinking like this, the dyslexic is the out-of-the-box thinker 
who thinks so creatively when others are just in a path. If 
they are not accommodated and their needs not addressed, then 
it is not an arc toward success, it is a descent into a 
frustrated life which, at its worst, ends up in prison, and at 
its not-so-bad ends up much lesser than it could be, and that 
comes through over and over.
    That said, I thank you all for being here.
    I have a script to follow.
    The hearing record will remain open for 10 days for 
Senators to submit additional comments and any questions for 
the record they may have.
    Thank you for being here today.
    The committee will stand adjourned.
    [Whereupon, at 4:24 p.m., the hearing was adjourned.]

                                   [all]      
</pre></body></html>
